No.

IN THE SUPREME COURT OF
THE UNITED STATES

WYLMINA HETTINGA—Petitioner
vs.
UNITED STATES OF AMERICA, et al—
Respondents

On petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
Wylmina Hettinga
1587 17th Street
Los Osos, CA 93402
(805) 235-1699
1

V

/

)

r

\

2

INDEX TO ENTERED OPINIONS AND
ORDERS
APPENDIX A, In the United States Appeals
Court for the Ninth Circuit, No. 19-55672
Memorandum entered 11/03/2020................. 4-9

APPENDIX B, In the Ninth Circuit Court No.
19-55672 Order entered 02/23/2021

10-11

APPENDIX C, In the District Court for Central
California, No. 2:18-CV-00150-R-AFM. Order
Granting Defendants’ Motion to Dismiss.... 12-26

APPENDIX D, In the District Court for
Northern California, No. C-13-2217-RMW...27-47

APPENDIX E, A recorded Grant Deed signed by
Kennedy provided as evidence in the cases
above

48-50
3

Case: 19-55672, 11/03/2020, ID:
11880098, DktEntry: 83-1, Page 1 of 4
NOT FOR PUBLICATION
UNITED STATES COURT OF
FILED
APPEALS FOR THE NINTH
NOV 3 2020
CIRCUIT
MOLLY C.
WYLMINA ELIZABETH
DWYER,
HETTINGA, PlaintiffCLERKU.S.
Appellant,
COURT OF
APPEALS
v.
No. 19-55672
UNITED STATES OF
AMERICA; et al.,
Defendants-Appellees, and
DOES, 1 to 10; WALTER P.
HAMMON,
Defendants.

D.C. No. 2:18-cv00150-R-AFM
MEMORANDUM*

Appeal from the United States District
Court for the Central District of California
Manuel L. Real, District Judge, Presiding
Submitted October 26, 2020**
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

4

(

Before: McKEOWN, RAWLINSON, and
FRIEDLAND, Circuit Judges.
Wylmina Elizabeth Hettinga appeals pro se
from the district court’s judgment in her 42 U.S.C.
§ 1983 action alleging claims arising from her
divorce proceedings, as well as a tax refund claim
resulting from the IRS’s audit of her 2011-2013
tax returns. We have jurisdiction under 28 U.S.C.
§ 1291. We review de novo. Hebbe v. Pliler, 627
F.3d 338, 341 (9th Cir. 2010) (dismissal under Fed.
R. Civ. P. 12(b)(6)); Kougasian v. TMSL, Inc., 359
F.3d 1136,1139 (9th Cir. 2004) (dismissal under
the Rooker-Feldman doctrine); C.A.R. Transp.
Brokerage Co., Inc. v. Darden Rests., Inc., 213
F.3d 474, 478 (9th Cir. 2000) (summary
judgment). We affirm.
The district court properly granted summary
judgment on Hettinga’s tax refund claim because
Hettinga failed to raise a genuine dispute of

5

material fact as to whether the IRS’s tax
assessment was incorrect. See Ray v. United
States, 762 F.2d 1361, 1362 (9th Cir. 1985)
(discussing requirements for a tax refund claim);
see also Block v. City of Los Angeles, 253 F.3d 410,
418-19 (9th Cir. 2001) (“To survive summary
judgment, a party does not necessarily have to
produce evidence in a form that would be
admissible at trial, as long as the party satisfies
the requirements of Federal Rules of Civil
Procedure 56.”).
The district court properly dismissed
Hettinga’s § 1983 claims for lack of subject
matter jurisdiction under the Rooker-Feldman
doctrine because these claims amounted to a de
facto appeal of prior state court orders. See Noel
v. Hall, 341 F.3d 1148,1163-65 (9th Cir. 2003)
(discussing Rooker-Feldman doctrine).

6

Case: 19-55672, 11/03/2020, ID: 11880098
DktEntry: 83-1, Page 3 of 4
The district court properly dismissed Hettinga’s
fraud claim because Hettinga failed to allege facts
sufficient to satisfy the heightened pleading
standard set forth in Federal Rule of Civil
Procedure 9(b). See Kearns v. Ford Motor Co., 567
F.3d 1120, 1124-25 (9th Cir. 2009) (discussing
heightened pleading standard under Rule 9(b)).
The district court did not abuse its discretion by
dismissing defendant Pamela Kennedy under
Federal Rule of Civil Procedure 41(b) because
Hettinga failed to respond timely to the district
court’s order to show cause despite being warned
failure to comply would result in Kennedy’s
dismissal. See Pagtalurum v. Galaza, 291 F.3d 639,
642-43 (9th Cir. 2002) (discussing standard of
review and factors to consider in determining
whether to dismiss under Rule 41(b) for failure to
comply with a court order).
7

The district court did not abuse its discretion
in denying Hettinga’s motion to reconsider
Kennedy’s dismissal because Hettinga failed to set
forth any basis for relief. See Sch. Dist. No. 1J,
Multnomah Cty., Or. v. ACandS, Inc., 5 F.3d 1255,
1262-63 (9th Cir. 1993) (setting forth standard of
r8eview and grounds for reconsideration under
Fed. R. Civ. P. 59 and 60).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief,
or arguments and allegations raised for the first
time on appeal. See Padgett v. Wright, 587 F.3d
983, 985 n.2 (9th Cir. 2009).
Hettinga’s motions (Docket Entry Nos. 45 and
60) to file her opening brief selected excerpts of
record from Appeal No. 18-56650, and to file her
supplemental briefs at Docket Entry Nos. 57 and
76, are granted. Defendant United States of

8

)

America’s motion to file a response to Hettinga’s
supplemental brief (Docket Entry No. 72) is
granted. The Clerk will file the supplemental
briefs submitted at Docket Entry Nos. 53, 57, 69
and 76.
All other pending motions (Docket Entry Nos.
71, 74, 77, and 80) are denied.
AFFIRMED.

9

Case: 19-55672, 02/23/2021, ID: 12013256,
DktEntry: 89, Page 1 of 1
NOT FOR PUBLICATION
UNITED STATES COURT OF
FILED
APPEALS FOR THE NINTH
FEB 23 2021
CIRCUIT
MOLLY C.
WYLMINA ELIZABETH
DWYER,
HETTINGA PlaintiffCLERKU.S.
Appellant,
COURT OF
APPEALS
v.
No. 19-55672
UNITED STATES OF
AMERICA; et al.,
Defendants-Appellees, and
DOES, 1 to 10; WALTER P.
HAMMON,
Defendants.

D.C. No. 2:18-cv00150-R-AFM
Central District of
California, Los
Angeles
ORDER

Before: McKEOWN, RAWLINSON, and
FRIEDLAND, Circuit Judges.

10

The panel has voted to deny the petition for panel
rehearing.
The full court has been advised on the petition
for rehearing en banc and no judge has requesteda
vote on whether to rehear the matter en banc. See
Fed. R. App. P. 35.
Hettinga’s petition for panel rehearing and
petition for rehearing en banc (Docket Entry No.
88), and motion to stay the mandate (Docket Entry
No. 86), are denied.
No further filings will be entertained in this
closed case.

11

\

Case 2:18-cv-00150-R-AFM Document 56
Filed 08/17/18 Page ID #914
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WYLMINA HETTINGA, ) CASE NO. CV
) CV 18 150-R

Plaintiff,

)

v.

) ORDER GRANTING

UNITED STATES OF
AMERICA; et ai,

) DEFENDANTS’

Defendants.

) MOTIONS TO
. ) DISMISS

Before the Court are the following motions: (1)
Defendants Travis Krepelka and Walter
Hammon’s Motion to Dismiss for Failure to State
a Claim upon which Relief can be Granted, filed
on May 8, 2018 (Dkt. 26); (2) Defendants Chicago
Title Company (“CTC”) and Jeanie O’Connor’s
Motion to Dismiss the First Amended Complaint
(“FAC”) Under FRCP 12(b)(1) and 12(b)(6), filed on
May 9, 2018 (Dkt. 29); (3) Defendant Timothy
12

Loumena’s Motion to Dismiss for Lack of
Personal Jurisdiction or Res Judicata, filed on
May 9, 2018 (Dkt. 30); (4) Defendant Scott
Raley’s Motions to Dismiss for Lack of Personal
Jurisdiction, Improper Venue, and Failure to
State a Claim, filed on May 21, 2018 (Dkt. 43);
and (5) Defendant United States’ Partial Motion
to Dismiss Plaintiffs FAC, filed on June 8, 2018
(Dkt. 50). The United States’ motion was not
opposed.1 Having been thoroughly briefed by all
parties, this Court took the matters under
submission. (Dkts. 52, 54, 55).

1 Under Local Rule 7-12, a party that does not file an
opposition to a motion may be deemed to consent to the
granting of the motion. C.D. Cal. R. 7-12; see Ghazali v.
Moran, 46 F.3d 52, 52 (9th Cir. 1995) (upholding district
court’s dismissal of plaintiff1 s complaint based on failure
to oppose motion as required by local rules).

13

Case 2:18-cv-00150-R-AFM Document 56 Filed
08/07/18 Page 2 of 6 Page ID #:915
In 2007, the Superior Court of the Comity of
Santa Clara dissolved the marriage between
Plaintiff Wylmina Hettinga and Loumena.2 The
Superior Court determined that the family home
(“the Property”) was community property and
ordered it sold, with the funds to be placed in a
trust account and eventually distributed to
Hettinga and Loumena. Hettinga refused to
6 cooperate with the sale. Because Hettinga
7 refused to cooperate with the sale, the Superior
8 Court authorized the court clerk, Defendant
9 Pamela Kennedy, to execute the grant deed.

2A court may take judicial notice of matters of public
record. Lee v. City of Los Angeles, 250 F.3d 668, 688 (9th
Cir. 2001). Here, Hettinga, Krepelka, Hammon, CTC,
O’Connor, Loumena, and Raley request that the court
take judicial notice of various documents in the public
record. (Dkts. 23, 27, 29, 32, 44). The Court takes judicial
notice of these documents. It relies on them to
supplement the factual allegations in the Complaint,
which are lacking.
14

In the instant lawsuit, Hettinga claims that this
conduct amounted to a violation of her civil rights
because the property was taken with no
consideration.
Hettinga has filed multiple lawsuits arising
from her divorce with Loumena. See Hettinga v.
Loumena, 2016 Cal. App. Unpub. LEXIS 8384, at
*2 (May 12, 2017) (“[Hettinga]...filed about 50
unsuccessful requests for family court orders,
filed 18 appeals, and was found guilty after
repeatedly violating restraining orders. Hettinga
also filed five state lawsuits and two federal
lawsuits against Loumena.”)- As a result of
Hettinga’s repeated filings, the District Court for
the Northern District of California, California
Superior Court, and California Court of Appeal
have each declared her a vexatious litigant.
The Complaint in this matter names as
Defendants Loumena, Hettinga’s ex-husband;
Kennedy, the state court clerk; Scott Raley, the
15

court-appointed real estate listing agent for the
Property; CTC, the escrow company involved in
the sale of the Property; Jeanie O’Connor, the
escrow agent who worked for CTC on matters
regarding the Property; Walter Hammon, the
attorney appointed by the state court to
represent Hettinga’s children; Travis Krepelka,
Loumena’s attorney in the initial divorce
proceedings; the United States of America,
specifically the IRS; and Shashank Paliwal, an
IRS agent who Hettinga alleges assessed her
taxes.
The Complaint alleges the following.
Defendants conspired together to wrongfully
seize the Property and give it to Loumena. On
February 27, 2013, Kennedy, acting as part of
the conspiracy, deeded the Property to
Loumena for $0, pretending to be a court clerk,
which she was not. Kennedy falsely claimed
16

that Loumena paid Hettinga valuable
consideration for the property. Hettinga,
Loumena, Hammon, Krepelka, O’Connor, CTC,
and Raley made false statements to the District
Court for the Northern District of California
regarding the proceedings in state court,
Kennedy’s execution of the grant deed, and the
sale of the Property. As a result of these
statements, the court dismissed Hettinga’s claims.
Loumena testified falsely that, after the grant
deeds were executed, he owned the Property on
his own for only a few hours. Loumena owned the
Property for several months. Defendants colluded
to grant the Property to Loumena for $0 and
commit fraud on the court.
The IRS and Paliwal audited Hettinga’s tax
returns for 2010 - 2013. The 2010 audit was
settled. As to the 2011 — 2013 tax returns, the IRS
wrongfully assessed income to Hettinga. In 2016,
17

Hettinga paid the IRS the full amount of taxes
owed, $65,003.00. Hettinga made administrative
claims for a refund, which were denied. Hettinga
also informed the IRS and Paliwal of the
conspiracy against her and conspiracy to defraud
the District Court for the Northern District of
California. On December 21, 2017, Hettinga filed
another administrative claim requesting a tax
refund, penalties, and interest.
Hettinga, appearing pro se, alleges claims for
the violation of her constitutional rights under 42
U.S.C. § 1983 claim, relief from judgment under
Federal Rule of Civil Procedure 60, and a tax
refund under 26 U.S.C. § 7433.3
Section 1983 Claim
The Rooker-Feldman doctrine prohibits federal
courts from exercising appellate review over final
state court judgments. Reusser v. Wachovia Bank,
3 Courts must liberally construe pro se pleadings.
Litmon v. Harris, 768 F.3d 1237, 1241 (9th Cir.
2014).
18

N.A., 525 F.3d 855, 858-59 (9th Cir. 2008). “the
clearest case for dismissal based on the RookerFeldman doctrine occurs when a federal plaintiff
asserts as a legal wrong an allegedly erroneous
decision by a state court, and seeks relief from a
state court judgment based on that decision.”
Henrichs v. Valley View Dev., 474 F.3d 609, 613
(9th Cir. 2007). Rooker-Feldman also “prohibits a
federal district court from exercising subject
matter jurisdiction over a suit that is a de facto
appeal from a state court judgment. A federal
action constitutes a de facto appeal where claims
raised in the federal court action are ‘inextricably
intertwined’ with the state court’s decision such
that the adjudication of the federal claims would
undercut the state ruling or require the district
court to interpret the application of state laws or
procedural rules. In such circumstances, the
district court is in essence being called upon to

19

Case 2:18-cv-00150-R-AFM Document 56 Filed
08/07/18 Page 4 of 6 Page ID #:917
review the state court decision.” Reusser, 525
F.3d at 859.
Here, Hettinga alleges that the state court
order ordering the sale of the Property and
distribution of the proceeds occurred illegally and
in violation of her constitutional rights.4 Because
this claim constitutes a de facto appeal under the
Hooker-Feldman doctrine, this Court lacks
subject matter jurisdiction. In order to analyze
Hettinga’s alleged civil rights injuries, this Court
4

This is not the first time that Hettinga has brought a §
1983 claim arising from the sale of the Property. Other
district courts have held that Hettinga’s claims
arising from the state court-ordered sale of the
Property are barred by the Rooker-Feldman doctrine.
See e.g., Hettinga v. Loumena, 671 Fed. App’x 421 (9th
Cir. 2016) (affirming the district court’s dismissal of
claim under the Rooker-Feldman doctrine); Loumena
v. Nichols, 671 Fed. App’x 454 (9th Cir. 2016) (same);
Pac. Almaden Invs., LLC v. Hettinga, 2014 U.S. Dist.
LEXIS 140537, at *9 (dismissing § 1983 claim for lack
of subject matter jurisdiction under Rooker-Feldman).

20

would have to determine whether state court’s
decision was correct. Consequently, any claims
arising from harms allegedly suffered as a result
of the state court order are barred by the RookerFeldman doctrine. See id. The Court does not
have subject matter jurisdiction over Hettinga’s
§ 1983 claims.
Rule 60(d)(3) Claim
Dismissal under Rule 12(b)(6) is proper when a
complaint exhibits either “the lack of a cognizable
legal theory or the absence of sufficient facts
alleged under a cognizable legal theory.” Balistreri
v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir.
1988). A plaintiff must allege “enough facts to
state a claim to relief that is plausible on its face,”
so that the defendant receives “fair notice of what
the...claim is and the grounds upon which it
rests.” Bell Atlantic Corp. v. Tivombly, 550 U.S.
21

544, 555 (2007); Ashcroft v. Iqbal, 556 U.S. 662,
698-99 (2009). “All allegations of material fact
are taken as true and construed in the light
most favorable to the nonmoving party.”
Sprewell v. Golden State Warriors, 266 F.3d
979, 988 (9th Cir. 2001).
Under Rule 60(d)(3), a court may set aside a
prior judgment for fraud on the court. United
States v. Sierra Pac. Indus., 862 F.3d 1157,
1167 (9th Cir. 2017). “[N]ot all fraud is fraud on
the court.... Fraud on the court must be an
intentional, material representation...designed
to improperly influence the court in its
decision.” Id. at 1167-68. “[T]he proper forum
in which to assert that a party has perpetrated
a ‘fraud on the court’ is the court which
allegedly was a victim of fraud.” Weisman v.
Charles E. Smith Mgmt., Inc., 829 F.2d 511, 513
(4th Cir. 1987). Under Rule 9(b), a claim of
22

fraud is subject to a heightened pleading standard
and must be pleaded with particularity. Fuchs v.
State Farm Gen. Ins. Co., 2017 U.S. Dist. LEXIS
220234, at *24 (C.D. Cal. Mar. 6, 2017).
Rule 9(b) states that an allegation of “fraud or
mistake must state with particularity the
circumstances constituting fraud. Fed. R. Civ. P.
9(b). The “circumstances” required by Rule 9(b)
are the “who, what, when, where, and how” of the
fraudulent activity.” Vess v. Ciba-Geigy Corp.
USA, 317 f.3d 1097, 1106 (9th Cir. 2003). In
addition, the allegation “must set forth what is
false or misleading about a statement, and why it
is false.” Id.
In this case, Hettinga alleges that Defendants
misrepresented the facts to the District Court for
the Northern District of California when they .
sought to have Hettinga’s prior actions dismissed.
First, this Court, located in the Central District of
23
/

California, is the wrong place to bring a claim
alleging fraud on a court located in another
district. Hettinga’s claim fails on this ground.
Second, Hettinga’s claim fails because she fails to
allege sufficient facts to overcome the heightened
pleading requirements of Rule 9(b). Hettinga
alleges that each Defendant made specific false
statements, but she does not allege what is false
or misleading about the statements or why they
are false. She simply states, as a matter of fact,
that each Defendant committed fraud on the
court. This is insufficient under Rule 9(b).
26 U.S.C. § 7433 Claim
The United States cannot be sued without an
“unequivocally expressed waiver of
sovereign immunity by Congress.” McGuire v.
United States, 550 F.3d 903, 910 (9th Cir. 2008).
“A waiver of the Federal Government’s sovereign
immunity must be unequivocally expressed
24

in statutory text.” Lane v. Pena, 518 U.S. 187,
192 (1996). If the United States has not waived
immunity, then the court lacks jurisdiction.
Section 7433 provides a waiver of sovereign
immunity only for actions arising from the
collection of taxes. Claims seeking damages
under § 7433 for improper determination of
assessment of tax are not actionable under
§ 7433 and must be dismissed for lack of subject
matter jurisdiction. Miller v. United States, 66
F.3d 220, 222-23 3 (9th Cir. 1995).
Here, Hettinga alleges misconduct related
only to Paliwal’s determinations and assessment
of tax. Hettinga does not make any allegations
about the improper collection of tax—such as
through a lien, a levy, or seizure. Therefore,
because Hettinga’s allegations describe improper
assessment and determination of tax, rather
than improper collection activities, Hettinga’s
25

claims do not fall within the United States’
§ 7433 waiver of immunity. This Court lacks
subject matter jurisdiction to hear the claim.
IT IS HEREBY ORDERED that
Defendants Krepelka, Hammon, CTC, O’Connor,
Loumena, Raley, and United States’ Motions to
Dismiss are GRANTED. (Dkts. 26, 29, 30, 43,
50).
Dated:
August 7, 2018.
MANUEL L. REAL
UNITED STATES
DISTRICT JUDGE

26

Case 5:13-cv-02217-RMW Document 107 Filed
09/30/14
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. C-13-2217-RMW
WYLMINA E.
HETTINGA,
Plaintiff,
ORDER GRANTING
MOTIONS
TO DISMISS,
v.
DECLARING PLAINTIFF
TIMOTHY P.
TO BE A VEXATIOUS
LOUMENA, et al„
LITIGANT, AND
Defendants. DENYING MOTION FOR
STAY
[Re: Docket Nos. 29, 38,
41, 44, 51, 62, 87,100]
All defendants move to dismiss plaintiff
Wylmina Hettinga’s first amended complaint.
Dkt. Nos. 29, 38, 41, 44, 51, 62; see Dkt. No. 7
(first amended complaint, “FAC”). Defendants
Jeanie O’Connor and Chicago Title Company
also request that the court declare plaintiff to
be a vexatious litigant. Dkt. No. 53, at 14-16.
27

Plaintiff brings a “motion for stay,” which the
court interprets as a motion for a preliminary
injunction. Dkt. Nos. 87, 100. For the reasons
explained below, the court GRANTS defendants’
motions to dismiss without prejudice, GRANTS
defendants Chicago Title Company and Jeanie
O’Connor’s motion to declare plaintiff to be a
vexatious litigant, GRANTS an injunction for
pre-filing review of plaintiffs future filings, and
DENIES plaintiff’s motion for stay.
I. BACKGROUND
This case arises out of plaintiff and defendant
Timothy Loumena’s state divorce case, which
has been ongoing since 2005. Plaintiff, who is pro
se, alleges in the FAC that “[o]n February 27,
2013, [defendant] Kennedy, purporting to be
acting under the laws of the State of California,
fraudulently claimed that Wylmina E. Hettinga,
trustee of The Loumena 2000 Revocable Trust
Agreement, established the 6th of December,
28

Case 5:13-cv-02217-RMW Document 107 Filed
09/30/14 Page 2 of 8

2000, Wylmina E [sic] Hettinga as an
individual, and Pacific Almaden Investments,
LLC a California Limited Liability Company
had, for a valuable consideration, receipt of
which was acknowledged, granted the Property
to Defendants.” FAC f 21. The FAC further
states that plaintiff “did not receive any such
valuable consideration, did not acknowledge
receipt of any such valuable consideration, and
did not grant [Hettinga and Loumena’s former
family residence (the “property”)] to
Defendants.” Id. ^ 22. According to the FAC,
the property was sold. Id. f 23. It appears from
12

Exhibit B to the FAC that the proceeds were
divided among various creditors. Id. Ex. B.
Documents from the state court divorce
case reveal that the state court repeatedly
ordered that the property be sold, with the
29

proceeds being placed in a trust account. 1 See
Dkt. No. 31. In an order filed January 23, 2013,
the state court wrote:
This Court previously ordered this
property sold on 1 September 2011
(order filed 28 March 2012). Under that
Order, Respondent Timothy Loumena
was to select the realtor, both parties
were to sign any and all necessary
paperwork, and the net proceeds were to
be placed into an interest-bearing trust
account. The Court reiterates and
modifies that Order as follows:
(a) The property shall be listed and sold
forthwith. The listing agent shall be the
individual named on the record by Mr.

1 Multiple defendants request that the court take judicial
notice of documents from the state court divorce case. Dkt.
Nos. 31, 45, 52, 64. These motions are GRANTED.

30

Loumena — Scott Raley of Customer
Service Realty. Mr. Loumena shall be
the sole lister of the property.
(b) Mr. Loumena shall work with the
realtor to prepare the property for sale
and make decisions concerning the
appropriate list price, what to do with
offers received, and any other
necessary elements of the sales
process.... As to any documents
requiring any signatures from Ms.
Hettinga,. .. Mr. Loumena shall
provide them, and those parties shall
promptly sign and return the
documents to Mr. Loumena. If three (3)
days after presenting the documents,
Mr. Loumena has not received the
necessary signatures, he may bring the
documents to Department 83 for the

31

Court Clerk to sign as elisor on behalf of
Ms. Hettinga,...
Id. Ex. C. It appears that, pursuant to the
January 23, 2013 state court order, Mr. Loumena
was required to have the court clerk, defendant
Kennedy, sign as elisor on behalf of plaintiff.
Plaintiff brings a single claim in the FAC, for
violation of her civil rights under 42 U.S.C. §
1983. Plaintiff s allegations arise directly out of
the sale of the property in her divorce case.
Specifically, plaintiff asserts that the forced sale
of the property violated her Fourth Amendment
rights, and her rights under the Takings Clause
of the Fifth and Fourteenth Amendments. The
FAC names as defendants Timothy Loumena,
plaintiffs ex-husband; Pamela Kennedy, the
state court clerk; the State of California; Walter
Hammon, the attorney appointed by the state
court to represent plaintiffs children; Travis
Krepelka, Loumena’s attorney; Scott Raley, the
32

court-appointed real estate listing agent; Chicago
Title Company, which was involved in the sale of
the property; and Jeanie O’Connor, who
apparently has some relationship with Chicago
Title Company.
II. ANALYSIS
A. Legal Standard
A motion to dismiss for failure to state a claim
under Rule 12(b)(6) tests the legal sufficiency of a
complaint. Navarro v. Block, 250 F.3d 729, 732
(9th Cir. 2001). In considering whether the
complaint is sufficient to state a claim, the Court
must accept as true all of the factual allegations
contained in the complaint. Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). However, the Court heed
not accept as true “allegations that contradict
matters properly subject to judicial notice or by
exhibit” or “allegations that are merely conclusory,
unwarranted deductions of fact, or unreasonable

33

inferences.” In re Gilead Scis. Sec. Litig.,,536
F.3d 1049, 1055 (9th Cir. 2008). While a
complaint need not allege detailed factual
allegations, it “must contain sufficient factual
matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.”’ Iqbal, 556
U.S. at 678 (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). A claim is
facially plausible when it “allows the court to
draw the reasonable inference that the
defendant is liable for the misconduct
alleged.” Id. at 678. “Determining whether a
complaint states a plausible claim for relief. .
. [is] a context-specific task that requires the
reviewing court to draw on its judicial
experience and common sense.” Id. at 679
B. Motions to Dismiss
Defendants base their motions to dismiss on
several grounds, including Eleventh Amendment

34

immunity, quasi-judicial immunity, the RookerFeldman doctrine, and failure to state a claim.
The court finds that it lacks subject matter
jurisdiction under the Rooker-Feldman doctrine,
and thus does not address any of defendants’
other arguments.
Under the Rooker-Feldman doctrine, a
federal district court has no authority to review
the final determinations of a state court in
judicial proceedings. Dist. of Columbia Court of
Appeals v. Feldman, 460 U.S. 462, 476 (1983);
Rooker v. Fidelity Trust Co., 263 U.S. 413, 41516 (1923). “The purpose of the doctrine is
protect state judgments from collateral federal
attack. Because district courts lack power to
hear direct appeals from state court decisions,
they must decline jurisdiction whenever they
are ‘in essence called upon to review the state
court decision.’” Doe & Associates Law Offices
35

v. Napolitano, 252 F.3d 1026,1030 (Oth Cir.
2001) (quoting Feldman, 460 U.S. at 482 n.16).
The Rooker-Feldman doctrine precludes not only
review of decisions of the state’s highest court,
but also those of its lower courts. See Dubinka v.
Judges of Superior Court, 23 F.3d 218, 221 (9th
Cir. 1994). A challenge under the RookerFeldman doctrine is a challenge for lack of
subject matter jurisdiction. Olson Farms, Inc. v.
Barbosa, 134 F.3d 933, 937 (9th Cir. 1998).
The Rooker-Feldman doctrine applies when a
plaintiff in federal court alleges a “de facto
appeal” by (1) asserting errors by the state court
as an injury and (2) seeking relief from the state
court judgment as a remedy. Kougasian v.
TMSL, Inc., 359 F.3d 1136, 1139-40 (9th Cir.
2004). “A federal action constitutes such a de
facto appeal where ‘claims raised in the federal
court action are ‘inextricably intertwined’ with

36

the state court’s decision such that the
adjudication of the federal claims would undercut
the state ruling or require the district court to
interpret the application of state laws or
procedural rules.’” Reusser u. Wachovia Bank,
N.A., 525 F.3d 855, 859 (9th Cir. 2008) (quoting
Bianchi v. Rylaarsdam, 334 F.3d 895, 898 (9th
Cir. 2003)).
In this case, plaintiff brings a § 1983 claim
based on the state court’s alleged violation of
plaintiff’s Fourth, Fifth, and Fourteenth
Amendment rights in ordering and executing the
sale of plaintiff’s property. Plaintiff argues that
the state court was wrong to order the sale of the
family residence and compel the proceeds to be
placed in a trust account. Plaintiff now seeks
relief in the form of monetary damages. Tellingly,
plaintiff’s “motion for stay” requests that this
court stay the state court case. Dkt. No. 87, at 8.

37

Similarly to the complaint, the motion for stay
focuses on the clerk of the court’s actions in
signing for Hettinga as elisor when Hettinga did
not sign and return the documents necessary for
the property’s sale as ordered by the state court.
Clearly, this is the sort of collateral attack on a
state court order contemplated by Rooker and
Feldman. “The Rooker-Feldman doctrine,
generally speaking, bars a plaintiff from bringing
a § 1983 suit to remedy an injury inflicted by the
state court’s decision.” Jensen v Foley, 295 F.3d
745, 747 (7th Cir. 2002). Here, plaintiffs § 1983
claim is barred by Rooker-Feldman, and the court
thus dismisses without prejudice plaintiffs
complaint for lack of subject matter jurisdiction.
Durbin v. Dubuque, 348 F. App’x 294, 295 (9th
Cir,2009)(ordering the district court to dismiss
without prejudice).
C. Motion to Stay

38

As determined above, the court lacks jurisdiction over
this suit. Plaintiff’s motion to stay, which is better
characterized as a motion for a preliminary
injunction, is related to the merits of plaintiff’s
case. Dkt. No. 87; see also Dkt. No. 100
(indicating that the funds from sale of the
property have already been disbursed, which
most likely moots the motion to stay).
Accordingly, the court lack jurisdiction to grant
plaintiffs requested stay, and plaintiffs motion to
stay is DENIED.
D. Motion to Declare Plaintiff a
Vexatious Litigant
Defendants Chicago Title Company and
Jeanie O’Connor also move for plaintiff to be
declared a vexatious litigant. In the motion,
these defendants request that the court require
plaintiff to seek leave of the court before filing
any more papers in this case or other cases in
39

)

this district.
“The AH Writs Act, 28 U.S.C. §1651(a),
provides district courts with the inherent power to
enter pre-filing orders against vexatious litigants.
However, such pre-filing orders are an extreme
remedy that should rarely be used. Courts should
not enter pre-filing orders with undue haste
because such sanctions can tread on a litigant's
due process right of access to the courts.” Molski
v. Evergreen Dynasty Corp., 500 F.3d 1047,1057
(9th Cir. 2007). At the same time, “[fjlagrant
abuse of the judicial process cannot be tolerated
because it enables one person to preempt the use
of judicial time that properly could be used to
consider the meritorious claims of other litigants.”
De Long v. Hennessey, 912 F.2d 1144,1148 (9th
Cir. 1990).
The Ninth Circuit has adopted a four-factor test
to determine whether a pre-filing review order is
40

warranted. Specifically, “[a] pre-filing review
order is appropriate if (1) the plaintiff is given
adequate notice and an opportunity to oppose the
order; (2) the Court compiles an adequate record
for review; (3) the Court makes substantive
findings as to the frivolous or harassing nature of
the litigant’s actions; and (4) the order is
narrowly tailored ‘to closely fit the specific vice
encountered.’” Missud v. Nevada, 861 F. Supp. 2d
1044,1055 (N.D. Cal. 2012) affd, 520 F. App’x
534 (9th Cir. 2013) (quoting Molski, 500 F.3d at
1057). The court now considers these four factors.
As to the first factor—notice—plaintiff was
given adequate notice because Chicago Title
Company and Jeanie O’Connor filed the motion
to declare plaintiff a vexatious litigant and
plaintiff has had an opportunity to oppose the
motion. See Dkt. No. 53, at 14-16. Nevertheless,
plaintiffs responses do not address the motion to

41

declare plaintiff a vexatious litigant. See Dkt.
Nos. 71, 72.
Under the second and third factors, the court
must compile an adequate record for review
and make substantive findings as to the
frivolous or harassing nature of plaintiffs
actions. Plaintiff has been declared a vexatious
litigant in state court as a result of her filings in
her divorce case. Dkt. No. 52-17, at 4. In this
district, plaintiff has filed at least five cases,
including the instant case and another similar
case also before the undersigned. Hettinga v.
Orlando, et ah, No. 09-CV-00253; Hettinga v.
Hammon, et al., No. 09-cv-06040; Hettinga, et
al. v. Loumena, et al., No. 10-cv-02975;
Hettinga v. Loumena, et al., No. 13-CV-02217;
Pacific Almaden Investments, LLC v. Hettinga,
et al., No. 14-cv-01631 (cross-complaint, though
the complaint, while not filed by Hettinga,

42

mirrors her other cases). This court also has a
pending motion to declare plaintiff a vexatious
litigant in that fifth case. Case No. 14-cv-01631,
Dkt. No. 34. All three of plaintiffs prior cases in
this district were dismissed for lack of subject
matter jurisdiction under the Rooker-Feldmcm
doctrine. Dkt. Nos. 52-4 Ex. D (Orlando case), 528 Ex. H (Hammon case), 52-11 Ex. K (first
Loumena case). Plaintiff appealed one of those
dismissals to the Ninth Circuit, and the Ninth
Circuit found plaintiffs appeal to be frivolous. See
Dkt. Nos. 52-5 Ex. E (“[W]e find that the appeal is
frivolous.”), 52-6 Ex. F (“[T]he questions raised in
this appeal are so insubstantial as not to require
further argument.... ”). Moreover, all of plaintiffs
cases arise out of plaintiffs underlying divorce
action and seek to obtain relief from the state
court’s decisions in plaintiff s long-running divorce
case. While no court in this district has reached

43

the substantive merits of plaintiffs cases because
the district court has lacked subject matter
jurisdiction over all of plaintiffs cases thus far,
none of plaintiffs cases appear to have any
substantive merit. Rather, plaintiffs suits in this
district typically name all attorneys and various
other individuals involved in her divorce case as
defendants. This practice of suing those involved
in plaintiffs state court case has likely harassed
those individuals and impeded the progress of
that case. As noted above, the state court has
declared plaintiff a vexatious litigant, and
plaintiffs divorce action has been pending for nine
years. Therefore, plaintiff Wylmina Hettinga is a
vexatious litigant, and the court will impose a pre­
filing review injunction on plaintiff.
Finally, the court must narrowly tailor the prefiling review order to the specific vice
encountered. Here, the vice is plaintiffs tendency

44

to file frivolous lawsuits relating to her ongoing
divorce action. The court therefore enjoins plaintiff
from filing any documents in this case, her other
currently pending case, No. 14-cv-01631 or from
filing any new action in the Northern District of
California arising out of facts related to plaintiffs
divorce case, without passing a pre-filing review.
This narrowly tailored order captures plaintiffs
pattern of abusive conduct without unnecessarily
impeding her access to the judicial system. By
requiring a pre-filing review of plaintiffs future
actions related to plaintiffs divorce case, the court
seeks to preclude plaintiff from further harassing
the individuals involved in the divorce case. To this
court’s knowledge, plaintiff has not engaged in any
abusive litigation conduct in this district beyond
repeatedly seeking to challenge the state court’s
actions in plaintiffs divorce case, so plaintiff remains
free to pursue any other claims she may have.

45

III. ORDER
For the foregoing reasons, the court GRANTS
defendants’ motions to dismiss with prejudice as
to further filings in federal court, GRANTS
Chicago Title Company and Jeanie O’Connor’s
motion to declare plaintiff to be a vexatious
litigant, and DENIES plaintiffs motion for stay.
The court imposes the following pre-filing review
on future filings by plaintiff Wylmina Hettinga:
The Clerk of this court may not file or accept any
further complaints filed by or on behalf of
Wylmina Hettinga as a named plaintiff that arise
out of facts related to plaintiffs divorce case. If
Ms. Hettinga wishes to file a complaint arising
out of facts related to her divorce case, she shall
provide a copy of any such complaint, a letter
requesting that the complaint be filed, and a copy
of this order to the Clerk of this court. The Clerk
shall then forward the complaint, letter, and a

46

copy of this order to the Duty Judge for a
determination whether the complaint should be
accepted for filing. Any violation of this order
will expose plaintiff to a contempt hearing and
appropriate sanctions, and any action filed in
violation of this order will be subject to
dismissal.

Dated:
September 30, 2014
/

RONALD M. WHYTE
United States
District Judge

)

47

1
i

*

I

Case5:13-cv^Q2217-RMW Documentl Filed05/15/13 Page8of10
Pw=;
3
OOCUHEKT:
22170W1
51. ee *
Fees. ..
1914.00
Taxes...
Ifl.BB
Copies..
1983.00
AMT PA10

&

RECORDING REQDtSTEO BY:
OtogoTOe Company
eMi«««D4 u-mnsMi-MS __ ^
igaamj c*aims-7«MSBMc»83iSMi
TM«fta4 ii-amsaw-B1
When Recorded *»9 Doreroent
endTnrtMariNtTK
Timothy P. loumena21251 Afmaden Rd
San Jose, CA

ROE * 085
4/U/2013
2:48 PM •

REGINA ALC0MEN0RAS
SANTA CLARA COUNTY RECORDER
Recorded fit the request of
Grantee

?

SWQEAflCWElHlSUWEi’CRft&OttlBl'SU^

APN: S8M5402

GRANT DEED

!
;

- saassjsawat^ss

;!

I

Wyfcnbi# H. Hetnnpa

{

I
i

SSSSSSSSS83

I

hereby rau»ms)X> Timothy P. Loumtma, ao u>»iunM man
the foOowtng described reel property bi the CRy trf San dore. County rf Shnta Clare,
SEE ©MBIT‘A* ATTACHED^HS^TO AHD MADE A PAKTMEREOF

erf Cdfifond*'-

■X7

i

DATS): Februaryd, »U
stats of CaBtocrt*

^

]

1

7.-27V4
-0"------------- rfetWYft*fc

______ befweme,

fp.retfynf

A

WT^ 7.

The Loumena 2S3 Revocable Trust Agreement
Ectabfished the ^ erf December, 2000

Paeffic AJnade» Investments, ILC, a Caifomfa

\

’ iSsilgPlgESEi
*
i
,

<

!

7/vr-L.

WytnJna E. Heffinga, Trustee, end Individually

\

ssne to KR/hetftheJr authortasd apadtype^), and Cat by ^
/>t&her/ttetr
<* «** S* p<M4 «Bd, treated the Z />AA-L
entfty upon
instnffnent.
Wyhntna E. Hettinga
I certify under PENALTY OF PSUiRYiaxtef the laws of the State
of Otffomifi that the foregoing peragra** ts true and correct.
WITNESS my hand and official seeL

,U<^

Signature

S2JS358-™

£

(Seal)

jSSTs
utn Tiventnmns aspatCTfflAHSL
otMfroca>

48

!
!

>

Case5:13-cv:02217-RMW Document! FBed05/15/13 Page9of10

;

!

i

i

V

I

;

>i
[
!

I

ii

;!

i

I;

\

!

;

!■

;

i.
i

:

49

:

Case5:13-cvg2l7-RMW Documentl

Fited05/J&13 Page10of10

!

i

:;

EacrvwMs^ u-9SnSMl-X>
UeatsHa.1 CACn7TO-77*J-29S3-O09S31»ll
TK*«to.i ll-WHO*!-*?

V

i
EXHIBIT “A”

I

THE LAND REFERRED TO HEREIN BELOW IS SITUATEDIN THE UNINCDRFORATH) AREA, COUNTY OF SANTACLARA,
STATE OF CALIFORNIA, AND IS DESCRIBED AS FOLLOWS:
PORTION OF LOT S, IN BUCK A, AS SHOWN ON THAT CBTOUN HAP BUTTLS) MAP OF BLOCK A, ALMADBI MANOR,
WHICH HAP WAS FTLET FOR RECORD IN TOE OFFICE OF THE COUNTY RECORDS! Of THE COUNTY OF SANTA QARA,
STATE OF CALIFORNIA ON MAT 3,1926, IN BOOK U OF MAPS, PAGE 46 AND-17.

«
5

A

BEGINNING AT A POINT IN THE CENTER UNE OF ALMADEN ROAD, AT THE SOUTHEASTERLY CORNER FOR LOTS 79
AND 30, AS SAID ROAD AND LOTS ARE SHOWN UPON THE MAP ABOVE REFERRKI TO; THENCE FROM SAID POINT OF
BEGINNING S 74 DEG 47 W ALONG SAID CENTER UNE OF ALHADBI ROAD FOR A DISTANCE OF 630 FEET TO AN
ANGLE CORNER TT^REIN; THENCE CONTINUING ALONG SAID CENTS! UNE OF ALMADEN ROADS. 7B DEG. SS'W. FOR
A DISTANCE OF S3.50 FEET; THENCE LEAVING SAID CENTER LINE OF ALMAO0I ROAD N. 29 DEG. 31’W. AND PARALLEL
WTTH THE DIVIDING ONE BETWEBEN SAID LOTS 29 AND 30 FOR A DISTANCE OF 34730 FEET TO A POTWT ON THE
NORTHWESTBLLT LINE OF SAID LOT 29; THENCE N. 78 DEG. 39' E ALONG SAID LAST NAMED LINE FOR A DISTANCE
OF 60 i» FEET TO THE NORTHWESTERLY COMMON CORNS! FOR SAID LOTS 29 AND 30; THENCE S. 39 DEG. 31'E.
ALONG SAID DIVIDING LINE BETWEEN LOTS 29 AND 30 FOR A OTSTANCE OF 34730 FEET TO THE POINT Of
BEGINNING.
APN: 583-15-002

i

!

i

!
I

!
}
?

r

;

Airier-: -.4 »=-•: 'f**>

!

f

I
1
T

I

L.._

I

!
!

is
r

50

